1900 K Street, NW
Washington, DC 20006-1110
+1 202 261 3300 Main
+1 202 261 3333 Fax
www.dechert.com

MICHAEL H. MCGINLEY

michael.mcginley@dechert.com
+1 215 994 2463 Direct

May 7, 2021
VIA E-FILE AND HAND DELIVERY

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, Northeast
Washington, D.C. 20543
Re: Philip Pilevsky, et al. v. Sutton 58 Associates LLC, No. 20-1483
Dear Mr. Harris:
I represent Respondent Sutton 58 Associates LLC in the above captioned case, which was docketed
on April 22, 2021, and in which a response was requested on May 4, 2021. I respectfully request a
30-day extension of time, to and including July 6, 2021 (accounting for the federal holiday), in
which to file the brief in opposition currently due on June 3, 2021.
I have only recently been retained in this matter. A 30-day extension to and including July 6, 2021
will ensure that I have sufficient time to fully analyze and respond to the arguments raised in the
petition for writ of certiorari.
Sincerely,

Miz
Michael H. McGinley

cc:

All counsel of record
Ronald S. Greenberg

